TN

E@QCKLE

2311 Douglas Street ; E-Mail Address:
ian, Nemeerdeion tlid Legal Briefs comacttacectieenc.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-119

STAPLES, INC., AND STAPLES THE
OFFICE SUPERSTORE, INC., PETITIONERS

v.
MARYLAND COMPTROLLER OF THE TREASURY
AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of October, 2019, send out
from Omaha, NE 2 package(s) containing 3 copies of the REPLY BRIEF FOR PETITIONERS in the above entitled case. All

parties required to be served have been served either by Priority Mail or by third-party commercial carrier for delivery within
3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
CRAIG B. FIELDS JOSEPH R. PALMORE
NICOLE L. JOHNSON Counsel of Record
MORRISON & FOERSTER LLP MORRISON & FOERSTER LLP
250 West 55th St. 2000 Pennsylvania Ave., N.W.
New York, NY 10019 Washington, D.C. 20006
(202) 887-6940
JAMES R. SIGEL JPalmore@mofo.com
MORRISON & FOERSTER LLP
425 Market St. Counsel for Petitioners

San Francisco, CA 94105

Subscribed and sworn to before me this 8th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . y
State of Nebraska ~ LE ‘

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38709
Brian E. Frosh

Attorney General of Maryland
303 Goldstein Treasury Building
80 Calvert Street

P.O. Box 466

Annapolis, MD 21404-0466
410-260-7801
oag@oag.state.md.us

Brian L. Oliner

Michael J. Salem

Schonette J. Walker

Assistant Attorney General

Office of the Maryland Attorney General
Louis L. Goldstein Treasury Building
80 Calvert Street, Room 303

Annapolis, MD 21404-0466
410-260-7808

boliner@comp.state.md.us
